NO. ____________
IN THE

Supreme Court of the United States
____________________
LUKE T. WEST,
PETITIONER,
V.

UNITED STATES,
RESPONDENT.
____________________
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
____________________
PETITION FOR WRIT OF CERTIORARI
____________________
CLAIBORNE W. BROWN
Counsel of Record
1070-B West Causeway Approach
Mandeville, LA 70471
(985) 845-2824
cwbrown@cwbrownlaw.com
Counsel for Petitioner

QUESTIONS PRESENTED
1)
As a matter of statutory construction
and application, is petitioner entitled to the exercise
of the authority of the United States Federal Court of
Claims under 28 U.S.C. §1491(a)(2) to a remand of
the review of petitioner’s general court martial
conviction to OJAG USN with further order to OJAG
USN to exercise its authority under 28 U.S.C.
§869(d)(1) to refer petitioner’s general court martial
conviction to the NMCCA for further judicial
appellate review?
2)
Under the Due Process Clause of the
Fifth Amendment of the United States Constitution,
is petitioner entitled to have his general court
martial conviction vacated in the case of United
States v. West?
3)
Can the Court of Federal Claims issue a
protective order placing the record under a partial
seal preventing the disclosure of the names of
petitioner’s sexual assault/sexual harassment
accusers in his general court martial, whereby the
validity of the conviction in said general court
martial is the subject of the dispute in the
proceedings before the Court of Federal Claims?
4)
Does the Privacy Act, 5 U.S.C. § 552a,
impose upon the petitioner (and by extension his
counsel) the duty to protect information regarding
the identity of petitioner’s sexual assault/sexual
harassment accusers at petitioner’s public court
martial?

i

5)
If the Privacy Act, 5
be interpreted to impose such
petitioner (and by extension his
imposition of that duty violate
under the First Amendment of
Constitution?

U.S.C. § 552a, can
a duty upon the
counsel), does the
petitioner’s rights
the United States

6)
Does the doctrine of Issue Preclusion
(Collateral Estoppel) apply to bar petitioner from
litigating in the proceedings below the issue of
whether the sexual assault/sexual harassment
accusations against him were false where: a) a court
in an earlier proceeding found that plaintiff failed to
prove by preponderance of evidence that the
allegations were false; b) the prior proceeding was a
Westfall Act certification challenge and the findings
on the merits regarding the falsity of the sexual
assault/sexual harassment allegations was made
pursuant to Osborn v. Haley, 549 U.S. 225 (2007); c)
the finding of the court in the prior proceeding was
that the court did not have subject matter
jurisdiction over petitioner’s claims; and d) the
opposing parties did not explicitly deny defendant’s
allegations
that
the
sexual
assault/sexual
harassment allegations were false (either by
affidavit, answer, or other responsive pleading)?
PARTIES TO THE PROCEEDINGS
The petitioner is Luke T. West, the plaintiff
and plaintiff-appellant in the courts below. The
respondent is the United States of America, the
defendant and defendant-appellee in the courts
below.

ii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED……………………… i
PARTIES TO THE PROCEEDINGS……………. ii
TABLE OF CONTENTS…………………………… iii
TABLE OF AUTHORITIES………………………. viii
BRIEF IN SUPPORT OF PETITION
FOR WRIT OF CERTIORARI…………………….. 1
OPINIONS BELOW………………………………… 2
JURISDICTIONAL STATEMENT………………. 2
CONSTITUTIONAL AND
STATUTORY PROVISIONS……………………… 2
STATEMENT OF THE CASE……………………. 3
A)

Background: the General
Court Martial………………………………… 3

B)

Motion to Dismiss for
Unlawful Command Influence……………. 5

C)

U.C.M.J. Article 69 Review………………... 9

D)

Related Proceedings:
West v. Rieth, et al., 15-cv-2512
(E.D. La. Jul. 12, 2016)…………………….. 11

iii

TABLE OF CONTENTS
(continued)
Page
E)

Procedural History of this Case……………13

ARGUMENT………………………………………… 18
I.

As a Matter of Statutory
Construction, Petitioner’s Court
Martial Conviction Should Be
Remanded to OJAG USN
with an Order to Refer to
NMCCA to Establish Jurisdiction
for Judicial Appellate Review……………… 18
A)

The Finality Provision of
U.C.M.J. Article 76 and Court
Martial Collateral Review
Jurisprudence……………………………. 18

B)

The U.C.M.J. Article 69
Distinction.……………………………….. 19

C)

The Statutory Relationship
of U.C.M.J. Article 76,
U.C.M.J. Article 69, and
28 U.S.C. §1491.………………………… 20

D)

Articulation and Application
of Erroneous Legal Standard
for Evaluating UCI.…………………….. 23

iv

TABLE OF CONTENTS
(continued)
Page
II.

In the Alternative, Petitioner’s
Court Martial Conviction Should
Be Vacated Outright under the
Jurisprudence Providing for
Collateral Review of Courts
Martial……………………………………….. 31

III.

The Doctrine of Issue Preclusion
Does not Apply Bar Litigation of the
Issue of Falsity of the Sexual Assault
Allegations against Petitioner…………….. 33

IV.

The Privacy Act, 5 U.S.C. § 552a,
and DoD Policy Do Not Apply
to Prohibit a Petitioner from
Publicly Asserting the Identities
of his Accusers……………………………….. 35

CONCLUSION……………………………………… 38
APPENDIX
Page (Appx.)
APPENDIX A: Decision under Review,
West v. U.S., 2019-2415
(Fed. Cir. 5/10/21)……………………………….. 1
APPENDIX B: Excerpts of Petitioner’s
Original Brief to the United States
Court of Appeals for the Federal
Circuit, No. 19-2415, R. Doc. No. 65…………..3
v

TABLE OF CONTENTS
(continued)
Page (Appx.)
APPENDIX C: Excerpts of Petitioner’s
Reply Brief to the United States
Court of Appeals for the Federal
Circuit, No. 19-2415, R. Doc. No. 66…………..8
APPENDIX D: Opinion of the Court
of Federal Claims, West v. U.S.,
17-2052 (C.C. 7/26/19)………………………….. 12
APPENDIX E: Excerpts of Petitioner’s
Cross Motion and Memoranda in
Opposition to Motions filed with the
United States Court of Federal Claims
in the Proceedings Below………………………. 73
APPENDIX F: Excerpts of Unlawful
Command Influence Motion Hearing of
February 19, 2014 in the Case of
United States v. West…………………………… 111
APPENDIX G: Excerpts of Unlawful
Command Influence Motion Hearing of
September 26, 2014 in the Case of
United States v. West:
SUMMARIZED TRANSCRIPT……………….. 127
APPENDIX H: Excerpts of Unlawful
Command Influence Motion Hearing of
September 26, 2014 in the Case of
United States v. West:
VERBATIM TRANSCRIPT……………………. 128

vi

TABLE OF CONTENTS
(continued)
Page (Appx.)
APPENDIX I: Excerpts of Trial
Testimony of November 18, 2014
in the case of United States v. West………….. 158
APPENDIX J: Relevant Correspondence
Regarding Actions of OJAG USN…………….. 163
APPENDIX K: Court of Federal Claims
Protective Order………………………………… 179
APPENDIX L: Judgment and Opinions:
West v. Rieth, et al., USDC EDLa
No. 15-2512………………………………………. 186
APPENDIX M: Constitutional and
Statutory Provisions……………………………. 225

vii

TABLE OF AUTHORITIES
Page(s)
CASES
Bertel v. F.A.A.,
725 F.2d 1403 (D.C. Cir. 1984)…………………..…36
Bowling v. United States,
713 F.2d 1558 (Fed. Cir. 1983)……………passim
Burns v. Wilson,
346 U.S. 1045 (1953)……………………..………18
Hicks v. Oklahoma,
447 U.S. 343 (1980)……………………………… 32
In re Freeman,
30 F.3d 1459 (Fed. Cir. 1994)………………..….34
Matias v. United States,
923 F.2d 831 (Fed. Cir. 1990).……………..passim
New York Times Co. v. United States,
403 U.S. 713 (1971)………………………………. 37
Olberding v. United States Dep’t of Defense,
709 F.2d 621 (8th Cir. 1983)……………………...36
Pippinger v. Rubin,
129 F.3d 519 (10th Cir. 1997)…………………….36
Richey v. United States,
322 F.3d 1317 (Fed. Cir. 2003)………………22, 23
Schlesinger v. Councilman,
420 U.S. 738 (1975)………………………………. 18
Shell Petroleum, Inc. v. U.S.,
319 F.3d 1334 (Fed. Cir. 2003)…………………..34
United States v. Arness,
73 M.J. 454 (C.A.A.F. 2014)………………….11, 19
United States v. Augenblick,
393 U.S. 348 (1969)………………….……….. 18, 21
United States v. Barry,
78 M.J. 70 (C.A.A.F. 2018)……………....28, 30, 31
United States v. Biagase,
50 M.J. 143 (C.A.A.F. 2006)………..…………….24
viii

TABLE OF AUTHORITIES
(continued)
Page(s)
United States v. Boyce,
76 M.J. 242 (C.A.A.F. 2017)………………. passim
United States v. Lewis,
63 M.J. 405 (C.A.A.F. 2006)………………..passim
United States v. Salyer,
72 M.J. 415 (C.A.A.F. 2013)………………. passim
Wilborn v. Dept of Health & Human Servs.,
49 F.3d 597 (9th Cir. 1995)………………………. 36
CONSTITUTIONS AND STATUTES
U.S. Const. Amend I…………………………………. 37
U.S. Const. Amend V……………………………..…..32
U.S. Const. Amend VI………………………………...36
10 U.S.C. § 837 (U.C.M.J. Art. 37)…………….. 23, 24
10 U.S.C. § 866 (U.C.M.J. Art. 66)……………passim
10 U.S.C. § 867 (U.C.M.J. Art. 67)……………passim
10 U.S.C. § 869 (U.C.M.J. Art. 69)……………passim
10 U.S.C. § 876 (U.C.M.J. Art. 76)……………passim
28 U.S.C. § 1254(1)……………………………… ……. 2
28 U.S.C. § 1491…………………………………passim
R.C.M. Rule 806………………………………..….36, 37
ix

PETITION FOR WRIT OF CERTIORARI
Petitioner, Luke T. West, respectfully petitions
for a writ of certiorari to the United States Court of
Appeal for the Federal Circuit in West v. United
States, 2019-2415 (Fed. Cir. 5/10/21). Petitioner has
been deprived of a constitutionally fair trial resulting
in his conviction at a general court martial.
However, because petitioner’s sentence did not reach
a certain threshold, the statutory scheme for military
justice appellate review does not provide, as a matter
of jurisdiction, for judicial appellate review by
military tribunals, but is limited to administrative
review by the service Judge Advocate General’s
Office (“OJAG”), which in this case is the OJAG of
the United States Navy (“USN”). Complicating this
problem is that petitioner’s case involves accusations
of sexual assault in the military, an area that was
and is highly politically charged and pervades the
military and civilian leadership at the highest levels,
including the OJAG USN, whose potential
misconduct is specifically challenged herein. Hence
petitioner has sustained considerable constitutional
violations that have essentially escaped any
objectively disinterested judicial review.
Petitioner herein also seeks review pertaining
to the Federal Circuit’s application of the equitable
doctrine of issue preclusion and the Privacy Act, 5
U.S.C. § 552a, which issues not only pertain to the
potential of petitioner to fully prosecute his claims,
but also pertain more broadly to the petitioner’s
ultimate ability to clear his name in the public
sphere and to engage in much needed public
discussion about the fairness of the military justice
system as it pertains to the potential politicization of
1

military sexual assault cases. Most significantly, the
holdings regarding these issues constitute a
perversion of the aforementioned legal principles and
statutory authority and potentially will have a
dangerously chilling effect of stifling petitioner’s
ability to fully vindicate the aforementioned
interests. As such, this Court should grant this writ
application and reverse the decision of the court
below.
OPINIONS BELOW
The judgment of the United States Court of
Appeal for the Federal Circuit is a non-precedential
decision of West v. United States, 2019-2415 (Fed.
Cir. 5/10/21), which summarily affirmed the decision
of the United States Court of Federal Claims in the
matter of West v. United States, No. 17-2052C (Fed.
Cl. 7/26/19).
JURISDICTIONAL STATEMENT
The judgment of the United States Court of
Appeal for the Federal Circuit was entered on May
10, 2021. This Court’s jurisdiction is pursuant to 28
U.S.C. §1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS
Constitutional and statutory provisions under
consideration are as follows:
United States Constitution: First Amendment.
Appx. at 225.
2

United States Constitution: Fifth Amendment.
Appx. at 225.
United
States
Constitution:
Amendment. Appx. at 225-26.

Sixth

5 U.S.C. § 552a. Appx. at 226-55.
10 U.S.C. § 869. Appx. at 255-57.
10 U.S.C. § 876. Appx. at 257.
28 U.S.C. § 1491. Appx. at 258-60.
STATEMENT OF THE CASE
A)

Background: the General Court Martial:

On June 20 and June 21, 2013, petitioner,
Luke T. West, who was at the time a gunnery
sergeant in the United States Marine Corps, was
accused by four individuals of sexual assault and
sexual harassment, allegedly occurring from
November of 2011 through June of 2013, while
petitioner was stationed at Marine Forces Reserves
(“MFR”) in New Orleans, Louisiana. Appx. at 81-85.
The allegations were made within the context of a
highly charged political climate surrounding the
handling of such allegations in the military and were
made under the auspices of the Department of
Defense (“DoD”) and Marine Corps (“USMC”) Sexual
Assault Prevention and Response (“SAPR”) Program
(collectively referred to as “DoD/USMC SAPR
Program”) and the Marine Corps Equal Opportunity
(“EO”) Program. Appx. at 79-85. Shortly after the
initial allegations were made, some of the accusers
obtained significant benefits under the DoD/USMC
SAPR Program and EO Program. Appx. at 85-86.
3

Despite substantial evidence calling into question the
veracity
of
the
accusations,
motives
and
opportunities to make such false allegations;
accusers’ allegations received virtually no scrutiny
and resulted in a general court martial being
convened against petitioner, due in large part to the
continued pervasive and wrongful influence exerted
by MFR SAPR Office personnel over the
investigation of Naval Criminal Investigative
Services (“NCIS”) and over military prosecutors.
Appx at 85-93.
This
notwithstanding,
petitioner
was
ultimately exonerated of any and all violations of
U.C.M.J. Article 120, Sexual Assault, and U.C.M.J.
Article 92 (violation of Paragraph 1166, U.S. Navy
Regulations pertaining to sexual harassment). Appx.
at 15-16, 23, 76-77, 92-94.
However, on November 21, 2014, petitioner
was convicted of the charges of violation of Article 81,
Conspiracy to Obstruct Justice; Article 93,
Maltreatment; Article 134 (Obstructing Justice); and
Article 134 (Indecent language). Appx. at 23, 77.
These charges pertained to only to a single accuser,
Ms. Rachel Allen (“Ms. Allen”), and pertained to
purportedly inappropriate comments made in a
January 16, 2013 text message and during the
attendance at a March 27, 2013 professional
basketball game (attended by petitioner, Ms. Allen
and several other individuals from petitioner’s unit).
Appx. at 81-83. The particular charge of obstructing
justice was based upon the action of then Master
Gunnery Sergeant Larry Thomas (“Mr. Thomas”), a
supervisor of both petitioner and Ms. Allen, to
confront Ms. Allen with an accurate copy of 140 pages
4

of text message conversations, showing daily
conversations between petitioner and Ms. Allen from
March of 2012 through the date of the accusations on
June 20, 2013. Id. These text message conversations
showed that petitioner and Ms. Allen were actually
close personal friends and colleagues and otherwise
flatly refuted Ms. Allen’s allegations that she was
“offended” or “intimidated” by petitioner. See Appx. at
82. The evidence in this matter was uncontroverted
that Mr. Thomas’s action was done in an effort to
discourage Ms. Allen from committing perjury by
testifying consistent with her false harassment
allegations. Appx. at 82-83.
In any event, as a result of this wrongful
prosecution, petitioner was reduced in rank to Lance
Corporal, incarcerated for 30 days and was prevented
from re-enlisting in the Marine Corps. Appx. at 23,
77.
B)

Motion
to
Dismiss
Command Influence:

for

Unlawful

In the pre-trial procedure, petitioner filed a
motion to dismiss the charges for what is termed in
military justice jurisprudence as the exercise of
“unlawful command influence” (“UCI”). Appx. at 17.
Though considerably broad in scope, the motion did
focus specifically upon the conduct of the
investigation into the charges. Appx. at 89-95, 128,
134-35.
Among the circumstances raised in
petitioner’s UCI motion were that NCIS had been
specifically directed by the military prosecutor, in
violation of MCO SAPR Program procedure, not to
follow up upon exculpatory evidence showing the
5

falsity of the sexual assault allegations of one of the
accusers, Appx. at 88-91, 94-95, 134-35; and that the
NCIS agent had felt general “pressure” to credit the
veracity of the accuser’s statements, Appx. at 91, 9495, 113-15. More significantly, the UCI motion
raised several instances of potential witness
intimidation against key witnesses, particularly with
respect to a witness named Gunnery Sergeant Cesar
Villegas (“Mr. Villegas”), who himself was
suspiciously investigated by NCIS for obstructing
justice under U.C.M.J. Article 134 relating to his
alleged interaction with one of petitioner’s accusers,
and who ultimately testified against petitioner as to
several matters, including providing testimony as to
the charges for which petitioner was convicted.
Appx. at 91, 139-40.
On September 26, 2014, a hearing on
petitioner’s UCI motion was held. Appx. at 18, 127,
128.
During that hearing, the military judge
articulated the following standard for evaluating the
presence of UCI in petitioner’s case:
[W]henever I or any court these days
consider UCI motions, we are really
focused on three factors: Was the CA
[the
convening
authority,
the
commanding general of MFR] acting in
response to some type of pressures from
superiors and acting with something
other than a completely pure heart? Of
course, that’s my language.
That’s
certainly not case law language.
Secondly, is there any evidence at all
that access to witnesses has been
inhibited or that witness are, because of
6

command influence, unwilling to testify
or cooperate with the defense? And,
thirdly, are the members [jury] free
from bias?
But I asked the defense counsel both
last Friday and again before becoming
[sic] on the record to focus his
presentation evidence to meet his initial
burden here on – within the bounds of
established UCI case law and that
would be typically on those three
factors; convening authority, access to
witnesses, and potential taint of
members pool.
Appx. at 129 (emphasis added). This purported
standard, hereinafter referred to by undersigned
counsel as “the West Standard”, was unduly
restrictive and narrow as it explicitly and
categorically excluded the conduct of a biased
investigation by NCIS and wrongful interference
with same by a uniformed military prosecutor. This
categorical exclusion as articulated and applied by
the military judge appears nowhere in military
jurisprudence, which uniformly provides the
following standard in evaluating actionable
“apparent” UCI.
We focus upon the perception of fairness
in the military justice system as viewed
through the eyes of a reasonable
member of the public.
Thus, the
appearance of unlawful command
influence will exist where an objective,
disinterested observer, fully informed of
7

all the facts and circumstances, would
harbor a significant doubt about the
fairness of the proceeding.
U.S. v. Lewis, 63 M.J. 405, 414-15 (C.A.A.F. 2006)
(emphasis added); see also U.S. v. Salyer, 72 M.J.
415, 424 (C.A.A.F. 2013). This standard, referred to
by undersigned counsel as “the disinterested
observer standard”, has been the well-established
standard for evaluating UCI since its introduction in
2006.
Throughout the hearing, the military judge
further applied the “West Standard” as previously
articulated, when she decreed that the biased NCIS
investigation was not “within the purview” of a UCI
motion unless petitioner could establish that NCIS
was specifically “pressured” by the convening
authority (in this case, the Commander of MFR).
Appx. at 137. More specifically, the military judge
demanded petitioner’s defense counsel ask the NCIS
agents directly whether they were specifically
pressured to conduct the investigation in a particular
manner (and even asked the direct question herself
to one of the agents). Appx. at 137-38, 141, 143-44,
148-50.
When the NCIS agents predictably
responded in the negative, the military judge
expressly refused to permit defense counsel to
conduct any meaningful examination into NCIS’s
conduct of that investigation to impeach NCIS’s
statements and to establish apparent UCI under the
“disinterested observer” standard. Id. As such, the
military judge, specifically using the artificially
created “West Standard” as the framework, found
that petitioner failed to meet his burden of
8

establishing a prima facie case of UCI and denied the
petitioner’s UCI motion. Appx. at 156-57.
C)

U.C.M.J. Article 69 Review:

Because petitioner was not sentenced to six
months or more of confinement and not awarded a
punitive discharge, his appellate rights were limited
to those rights as provided under Article 69 of the
UCMJ. 10 U.S.C. § 869 (U.C.M.J. Article 69).
Pursuant to Article 69 of the UCMJ, a military
service judge advocate general, in this case, the
Judge Advocate General of the United States Navy
(“OJAG USN”), was required to review the record of
trial in a general court martial conviction for legal
sufficiency. Id. Of considerable significance is that,
again due to the nature of the sentence awarded,
petitioner had no appellate rights of judicial review
of his case by the military tribunals under Articles 66
and 67 of the UCMJ. 10 U.S.C. §§ 866, 867. The
only potential for any such judicial review rested
with the discretion of the OJAG USN, who under
Article 69(d) could refer a general court martial
conviction to the Navy Marine Corps Court of
Criminal Appeals (“NMCCA”) for judicial appellate
review. Id.
While not required under Article 69, the OJAG
USN would accept and consider applications to
review specific issues from defendants whose court
martial convictions were before the OJAG USN for
review under Article 69. Petitioner submitted such
an application for review, which included the issue of
the creation and application of the “West Standard”.
Petitioner also noted his objection to the
9

“summarized” transcript of his court martial
proceedings, which did not include any information
pertaining to several of petitioner’s legal claims,
most notably the articulation and application of the
“West Standard”. Appx. at 25-26; compare Appx.
127, with Appx. 129, 137-38, 141, 143-44, 149-51.
On December 1, 2016, the Office of the JAG
USN responded to petitioner’s application for
appellate review. Within that response, OJAG USN
advised that “a verbatim transcript is necessary for a
thorough evaluation of the legal sufficiency of this
case” and further advised that it was requesting a
verbatim transcript and would continue its Article 69
review upon receipt. Appx. at 26, 165-66.
After preparing a verbatim transcript of
petitioner’s court martial proceedings, OJAG USN
attempted to secure an agreement by petitioner that
he (and his counsel) would be bound by the
provisions of the Privacy Act, 5 U.S.C. §552a
pertaining to its use. Appx. at 173-74. When
petitioner refused, OJAG USN issued an ominous
threat regarding its interpretation that undersigned
counsel was subject to the provisions of the Privacy
Act regarding the use of the verbatim transcript and
conspicuously referenced OJAG USN’s authority to
impose disciplinary measures against counsel under
its cognizance (of which undersigned counsel is
included). Id.
Although petitioner’s assertions regarding the
creation and application of the “West Standard” were
unambiguously
confirmed
by
the
verbatim
transcript; on June 9, 2017, OJAG USN affirmed,
without explanation, the findings and sentence in
10

petitioner’s case. Appx. at 27, 177-78. Additionally,
OJAG USN otherwise declined to exercise its
discretion under Article 69(d) to direct petitioner’s
court martial to the Navy-Marine Corps Court of
Criminal Appeals (“NMCCA”) for appellate review
under U.C.M.J. Article 69(d), which effectively
terminated any further jurisdiction of the military
justice system over petitioner’s court martial
conviction, or the correctness of OJAG USN’s
U.C.M.J. Article 69 review of same. Appx. at 177-78;
see United States v. Arness, 73 M.J. 454 (C.A.A.F.
2014). As such, no military tribunal has considered,
nor has had the jurisdiction to even exercise
discretion to consider, any of the assignments of
error put forward by the petitioner in this case.
D)

Related Proceedings: West v. Rieth, et al.,
15-cv-2512 (E.D. La. Jul. 12, 2016):

In conjunction with the collateral review of his
court martial conviction, on July 9, 2015, petitioner
filed suit against several of his accusers in the
matter of West v. Rieth, et al., 15-cv-2512 (E.D. La.
Jul. 12, 2016), alleging state law claims of
defamation and malicious prosecution arising out of
the false allegations of sexual assault and sexual
harassment against him. Appx. at 24-25, 188-90.
On August 27, 2015, the United States
Government (“Government”) through the Office of
the United States Attorney for the Eastern District
of Louisiana (“USAO EDLa”), pursuant to the
Federal Tort Claims Act, 28 U.S.C. § 2679 (“the
Westfall Act”), certified that the alleged actions of
the accuser defendants were all performed while
11

acting within the scope of their federal employment,
which would defeat subject matter jurisdiction over
the defendant accusers under the Westfall Act.
Appx. at 190. As such, the USAO EDLa, appearing
“on behalf of” the accuser defendants, filed a Motion
to Dismiss Party for Lack of Subject Matter
Jurisdiction and Motion to Substitute the United
States of America as Sole Federal Defendant
(“Motion to Dismiss/Substitute”). Id.
On December 22, 2015; the District Court
granted
the
USAO
EDLa’s
Motion
to
Dismiss/Substitute. Appx. at 204-05. The District
Court, in upholding the Westfall Act certification,
examined the merits of petitioner’s claims as per this
Court’s decision in Osborn v. Haley, 549 U.S. 225
(2007), and found that petitioner, based on the
evidence submitted (which the District Court
specifically noted did not include a sworn statement
by petitioner), failed to meet his burden of proof to
establish, by preponderance of evidence sufficient to
establish jurisdiction under the Westfall Act, that
the allegations against him were false. Appx. at 19697. Of significance was that the District Court
acknowledged that the accusers never explicitly
denied petitioner’s assertions that the sexual assault
and sexual harassment allegations against him were
false, further noting that the purported contesting of
petitioner’s assertions was “an implicit premise” of
the Government’s argument.
Appx. at 194.
Additionally, despite its findings pertaining to the
Westfall Act certification, the District Court
specifically permitted petitioner to amend his
complaint to allege a “Bivens” civil rights action
against two of the accusers, which was done on
12

January 4, 2016 and which action was also based
upon his assertion that the allegations of sexual
harassment and sexual assault against him were
false. Appx. at 203-04. Thirdly, as to its factual
determination, the District Court imposed the
burden of proof upon the petitioner, while specifically
denying petitioner an evidentiary hearing, which
explicitly had been requested. Appx. at 203.
Pursuant to its rulings on December 22, 2015
and June 24, 2016, the District Court issued final
judgment on July 12, 2016. Appx. at 186-87. In its
final judgment, the District Court dismissed the
Bivens claims with prejudice.
Appx. at 187.
However, regarding the disposition of the state law
claims pursuant to the December 22, 2015 Order and
Reasons, the District Court explicitly dismissed those
claims “without prejudice for lack of subject matter
jurisdiction”. Appx. at 186.
E)

Procedural History of this Case:

On May 5, 2017, petitioner initially filed this
suit for collateral review of his court martial
conviction in the Eastern District of Louisiana. West
v. Mattis, E.D. La. No. 2:17-cv-04746, R. Doc. No. 1.
After declining to grant outright the Government’s
motions to dismiss, and after soliciting exhaustive
briefing on the issues raised, the District Court
requested whether petitioner would consent to a
transfer of the case to the Court of Federal Claims.
See E.D. La. No. 2:17-cv-04746, R. Doc. Nos. 27, 32,
33.
After granting petitioner leave to amend his
Complaint to aver a Tucker Act Claim under 28
U.S.C. § 1491, the District Court then transferred
13

the case the United States Court of Claims. E.D. La.
No. 2:17-cv-04746, R. Doc. Nos.36, 37, 38.1 Despite
filing a detailed complaint fully identifying the
accusers and their statements, the Government did
not, in any way, object to the public identification of
petitioner’s accusers, nor did the Government file
any motion to seal same.
Subsequent to the transfer of the case to the
Court of Claims, the Government filed a motion for
protective
order
seeking
to
“protect
the
confidentiality and privacy of the service-members
that alleged sexual assault by [petitioner]”, basing
the motion on the application of the Privacy Act and
upon the DoD SAPR Program procedures. See Appx.
at 27, 65. The Trial Court granted the Government’s
motion and issued a protective order on April 24,
2018. Appx. at 27.
Pursuant to the Trial Court’s scheduling
order, the Government filed a Motion for Judgment
on the Administrative Record seeking dismissal of
petitioner’s claims on the grounds that the
administrative record did not establish any basis for
vacating petitioner’s general court martial conviction
under the principles of collateral review as provided
by the cases of Matias v. United States, 923 F.2d 821
(Fed. Cir. 1990) and Bowling v. United States, 713
F.2d 1558 (Fed. Cir. 1983). Appx. at 27, 43-44.
Petitioner filed a Cross Motion for Judgment
on the Administrative Record, arguing that the
As the case was transferred and postured in the Court of
Claims, the substantive predicate for petitioner’s attack upon
his court martial conviction was the Military Pay Act, 37 U.S.C.
§ 204. Appx. at 29.
1

14

administrative record did, in fact, support a finding
that petitioner’s general court martial conviction
should be vacated under Matias and Bowling. Appx.
at 28, 43. Within wide ranging assertions of multiple
circumstances of what was characterized as
fundamental errors that pervaded the pre-trial, trial,
post-trial, and appellate procedures; petitioner
specifically asserted the military judge’s erroneous
creation and application of the “West Standard” in
evaluating UCI cases. Appx. at 43. In addition to
invoking the Trial Court’s jurisdiction to vacate his
court martial conviction outright, petitioner invoked,
in the alternative, the Trial Court’s jurisdiction
under 28 U.S.C. § 1491(a)(2) to remand the case to
the OJAG USN with further instruction to refer the
case to the military courts for review, per the OJAG
USN’s authority under U.C.M.J. Article 69. Appx. at
43.
In addition, as a supplement to its Motion for
Judgment on the Administrative Record, the
Government also filed a Motion for Summary
Judgment asserting that, as a result of the December
22, 2015 holding in the case of West v. Rieth, the
petitioner was barred from asserting that the
accusations of sexual assault and sexual harassment
were false, and thus was barred from asserting
conspiracy pertaining thereto under the application
of the doctrine of issue preclusion. Appx. at 28, 37.
Furthermore, pursuant to the procedures
provided under the Trial Court’s Protective Order,
petitioner filed a Motion for Relief from the
Protective Order, arguing that the identities of his
accusers and their accusations were not subject to
any protection under the Privacy Act; nor did any
15

DoD procedures under the SAPR Program apply to
afford any requirement that the accusers’ identities
by sealed. Appx. at 28, 64-65.
On July 26, 2019, in its Memorandum Order
and Opinion, the Trial Court granted the
Government’s Motion for Summary Judgment on the
application of issue preclusion, finding that
petitioner was barred from asserting in these
proceedings that the allegations of sexual assault
and sexual harassment were false. Appx. at 36-37.
Based at least in part upon its holding on the
Government’s Motion for Summary Judgment, the
Trial Court granted the Government Motion for
Judgment on the Administrative Record and denied
petitioner’s Cross Motion for Judgment on the
Administrative Record, noting that the proceedings
were neither fundamentally unfair, nor did
petitioner establish that the military did not fully
and fairly consider his claims. Appx. at 31, 37.
Based upon its Memorandum Order and Opinion, the
Trial Court dismissed petitioner’s claims. Appx. at
13, 36, 68.
Finally, the Trial Court denied petitioner’s
Motion for Relief from Protective Order, finding that,
despite the fact that they identified themselves and
levied their accusations at petitioner’s public trial,
the identities of petitioner’s accusers were subject to
protection from publication under the Privacy and
DoD SAPR Program procedures.
Appx. at 67.
Notwithstanding its analysis, the Trial Court
directed the parties to identify the material in the
Memorandum Opinion and Order to be redacted.
Appx. at 68. Though of particular significance, with
the notable exception of petitioner’s accusers, the
16

Government did not seek, and the Trial Court did not
redact, the names of the any other individuals
involved in the case. See Appx. at 15, 18, 19, 21, 4548, 55, 69.
Petitioner appealed the Trial Court decision to
the United States Court of Appeals for the Federal
Circuit. Appx. at 1-11. In that appeal, petitioner
specifically asserted the Trial Court’s error in
applying the stringent Mattias/Bowling standard in
collaterally reviewing the validity of petitioner’s
general court martial conviction. Appx. at 3-4.
Additionally, petitioner asserted, as both a general
matter of constitutional fairness as well as statutory
construction, that the Trial Court erred in not
exercising its remand authority under 28 U.S.C.
§1491(a)(2) and refusing to order the OJAG USN to
refer petitioner’s court martial conviction to the
NMCCA for further judicial appellate review. Appx.
at 5-6, 8-10. Finally, petitioner specifically asserted
the Trial Court’s error both as to the application of
the doctrine of issue preclusion pertaining to the
issue on the merits of whether the sexual
assault/sexual harassment accusations against
petitioner were, in fact, false; as well as the
imposition of a protective order effectively preventing
“release” and “disclosure” of the identities of
petitioner’s accusers. Appx. at 3-5.
On May 10, 2021, the Federal Circuit
summarily affirmed the decision of the Trial Court.
Appx. at 1-2. This Petition follows.

17

ARGUMENT
I.

As a Matter of Statutory Construction,
Petitioner’s Court Martial Conviction
Should Be Remanded to OJAG USN with
an Order to Refer to NMCCA to Establish
Jurisdiction
for
Judicial
Appellate
Review.
A)

The Finality Provision of U.C.M.J.
Article 76 and Court Martial Collateral
Review Jurisprudence:

As an initial matter, the Supreme Court cases
of Burns v. Wilson, 346 U.S. 1045 (1953); United
States v. Augenblick, 393 U.S. 348 (1969); and
Schlesinger v. Councilman, 420 U.S. 738 (1975), have
provided the jurisprudential basis for collaterally
reviewing an otherwise final judgment of conviction
at a court martial, as per 10 U.S.C. § 876 (U.C.M.J.
Article 76). Based upon this Court’s holdings in
Burns, Augenblick, and Schlesinger, the subsequent
circuit level jurisprudence has recognized, in a fairly
uniform manner, a civilian federal court’s
jurisdiction to review and to declare “void” a court
martial conviction, upon the finding of errors
considered to be “fundamental”, notwithstanding the
principle of finality. More specifically, the Federal
Circuit has held that the jurisdiction of the Court of
Claims in Tucker Act cases includes the authority to
collaterally review and vacate a court martial
conviction where the following conditions are
established:
1) the petitioner demonstrates
convincingly that in the court-martial proceedings
there has been such a deprivation of fundamental
18

fairness as to impair due process; and 2) the military
tribunal failed to give full and fair consideration to
each of petitioner’s claims. Matias v. United States,
923 F.2d 821, 826 (Fed. Cir. 1990); Bowling v. United
States, 713 F.2d 1558, 1561 (Fed. Cir. 1983).
B)

The U.C.M.J. Article 69 Distinction:

However, while it is generally accepted that
Matias and Bowling provide the basis and the
general framework for review and potential vacating
of courts martial convictions in Tucker Act cases, the
analysis of Matias/Bowling does not squarely fit the
circumstances of this case. Matias/Bowling have
addressed situations in which the accused’s court
martial was subject to direct appellate review by
military tribunals (the courts of appeals of the
particular services and the Court of Appeals for the
Armed Forces (“CAAF”)) under U.C.M.J. Articles 66
and 67. See generally, Matias, 923 F.2d at 821;
Bowling, 713 F.2d at 1559. However, due to the
nature of the sentence imposed, absent a
discretionary referral by OJAG USN; military
tribunals were jurisdictionally precluded from
providing any direct judicial appellate review of
petitioner’s general court martial under Article 66
and 67; and review was limited to agency review
under Article 69. See, U.C.M.J. Article 66, 69;
United States v. Arness, 74 M.J. 441 (C.A.A.F. 2015).
Therefore, full and fair appellate review has simply
not occurred in this case as contemplated by Matias
and Bowling.

19

C)

The Statutory Relationship of U.C.M.J.
Article 76, U.C.M.J. Article 69, and 28
U.S.C. § 1491:

As a matter of statutory construction, the
finality provision of U.C.M.J. Article 76 does not apply
to the review of the OJAG USN’s exercise (or refusal to
exercise) its power to refer the case to the NMCCA
under Article 69(d)(1). Article 69 provides for the
review of courts martial by the service JAG, which
review includes the requirement to review a general
court martial conviction and to either affirm same or
to modify or set aside the findings or sentence or both.
Id. More importantly, Article 69(d) provides, as
follows:
A Court of Criminal Appeals may review,
under section 866 of this title (article 66)
–
(1) any court-martial case which (A) is
subject to action by the Judge Advocate
General under this section, and (B) is
sent to the Court of Criminal Appeals by
order of the Judge Advocate General; and
(2) any action taken by the Judge
Advocate General under this section in
such case.
10 U.S.C. § 869 (U.C.M.J. Article 69).2

10 U.S.C. §869 (U.C.M.J. Article 869), along with 10 U.S.C. §§
866 & 867 (U.C.M.J. Articles 66 & 67) were recently and
substantively amended, with an effective date of January 1,
2019, which amendments are therefore inapplicable in this
case.
2

20

The operative language of Article 69(d)(2) is
critically important here. As written, the service JAG
has the power to refer a case to a court of criminal
appeal is broad and unrestricted. Specifically, there is
no prohibition to the service JAG affirming the
conviction, then subsequently referring the affirmed
conviction to the service court of criminal appeals,
with said court of appeal explicitly having the power to
review that decision to affirm said conviction. As such,
a service JAG’s power to refer a case to its
corresponding service court of criminal appeal under
Article 69(d) constitutes a necessary and operative
exception to the finality provision of Article 76,
because the service JAG’s “affirmation” of the
conviction in that instance cannot be final if Article
69(d)(2) is to have any effect. Because Article 76 is the
basis for the Matias/Bowling standard as per the case
of Augenblick, the Matias/Bowling standard does not
apply to provide the standard of analysis of whether a
service JAG (or more specifically, the OJAG USN)
properly exercised or declined to exercise its referral
power under Article 69(d).
Another significant element of this statutory
relationship is the jurisdiction afforded to the Court
of Federal Claims by 28 U.S.C. § 1491(a)(2). Section
1491(a)(2) affords the Court of Claims in Tucker Act
cases “the power to remand appropriate matters to
any administrative or executive body or official with
such direction as it may deem proper and just.” Id.
Given the power of the service JAG to refer, under
U.C.M.J. Article 69(d), a court martial conviction to
the service courts of criminal appeal for judicial
appellate review; such an instruction by the Court of
Claims accompanying the Section 1491(a)(2) remand
21

would be “consistent with the statutory scheme” and
would be a permissible exercise of Section 1491(a)(2)
jurisdiction. See Richey v. United States, 322 F.3d
1317, 1323 (Fed. Cir. 2003).
The provision of Section 1491(a)(2) provides
clear jurisdiction to the Federal Court of Claims
remand petitioner’s court martial conviction to OJAG
USN with a limited order to refer petitioner’s court
martial conviction to the NMCCA. The Court of
Claims would not be reviewing the correctness of the
court martial conviction, nor would it be reviewing
OJAG USN’s review of same: it would merely be
ordering further review, as explicitly provided for by
Article 69(d), by the NMCCA. For this action, as a
matter of statutory interpretation, the restrictive
standard of Matias/Bowling is out of place.
Therefore, as a matter of the statutory
interrelationship between U.C.M.J. Article 69 and 28
U.S.C. § 1491, petitioner herein submits that, where
no judicial appellate review (or even discretionary
consideration of appellate review) has occurred due
to the jurisdictional limitations of U.C.M.J. Articles
66 and 67, and appellate review is limited to
administrative appellate review under Article 69;
any collateral review of a court martial conviction
under Matias/Bowling by the Court of Federal
Claims must include a preliminary determination as
to whether the service JAG office properly declined to
exercise its discretion under Article 69(d) to refer
said conviction to the service courts of criminal
appeals for judicial appellate review. Second, if a
determination is made that the service JAG
erroneously failed to exercise that authority, the
Court of Claims must exercise its jurisdiction under
22

28 U.S.C. §1491(a)(2) to remand the conviction back
to the service JAG with an order to refer said case to
the service courts of criminal appeal for further
judicial appellate review pursuant to Article 69(d).
Finally, the Court of Claims must conduct this
preliminary determination applying the same legal
standards as it would in reviewing any other
contested agency action. On this point, the Federal
Circuit’s decision in Richey v. United States, 322 F.3d
1317 (Fed. Cir. 2003), which involved review of an
agency materially similar to the OJAG USN,
provides that “a court may set aside the action only if
the court finds that the action was — (A) arbitrary or
capricious; (B) not based on substantial evidence; (C)
a result of material error of fact or material
administrative error; or (D) otherwise contrary to
law.” Id. at 1325.
D)

Articulation
and
Erroneous
Legal
Evaluating UCI:

Application
Standard

of
for

The military judge’s articulation and
application of a previously non-existent legal
standard in applying the UCI analysis, as well as her
refusal to apply an accepted analysis for evaluating
apparent UCI, was, at a minimum, patent legal error
that should have been referred by OJAG USN’s to
the NMCCA under Article 69(d). To begin with, a
full appreciation of the military judge’s erroneous
“West Standard” does require a fuller discussion of
UCI jurisprudence. The prohibition against UCI is
based upon U.C.M.J. Article 37 (10 U.S.C. § 837),
which provides, in pertinent part, that “[n]o person
23

subject to this chapter may attempt to coerce or, by
any unauthorized means, influence the action of a
court martial . . ., in reaching the findings or
sentence in any case.” Id. The jurisprudence has
provided the court with broad authority to provide an
appropriate remedy where it is found, which remedy
has also included dismissal of the case against an
accused.
At the time of the military judge’s ruling on
petitioner’s UCI motion in September of 2014, the
jurisprudence clearly recognized the concepts of
actual UCI and apparent UCI, either of which could
be an independent basis for remedy. See U.S. v.
Lewis, 63 M.J. 405 (C.A.A.F. 2006); U.S. v. Salyer, 72
M.J. 415 (C.A.A.F. 2013).
The principle of actual
UCI was set forth in the case of United States v.
Biagase, 50 M.J. 143 (C.A.A.F. 1999). In that case,
the Court of Appeals for the Armed Forces (“CAAF”)
established a burden of proof structure for
establishing and rebutting the presence of actual
UCI. Specifically, Biagase provided that an accused
has the initial burden of establishing elements in
order to raise actual UCI: 1) facts, which if true,
constitute unlawful command influence; 2) the court
martial proceedings were unfair (i.e., the accused
was prejudiced); and 3) the unlawful command
influence was the cause of that unfairness. 50 M.J.
at 150. The quantum of proof for the accused’s initial
burden is “low, but more than mere allegation or
speculation . . . i.e., some evidence”. Id. Once the
issue of unlawful command influence is raised, the
Government must prove, beyond a reasonable doubt:
(1) that the predicate facts do not exist; or (2) that the
facts do not constitute unlawful command influence; or
24

(3) that the unlawful command influence will not
prejudice the proceedings. Id.
This formulaic standard and burden/quantum
of proof structure for actual UCI notwithstanding,
CAAF issued a significant development in the
application of apparent UCI in the case of United
States v. Lewis, 63 M.J. 405 (C.A.A.F. 2006). In that
case, the prosecutor, perceiving the detailed military
judge to be defense friendly, conducted an
inappropriate and unprofessional voir dire of the
military judge, which ultimately resulted in that
judge’s recusal. 63 M.J. at 407-11. While CAAF
acknowledged the presence of actual UCI in the case,
the analysis turned on whether the prejudicial effect
of the UCI had been sufficiently removed by the
detailing of an otherwise qualified and neutral
military judge to the case. Id. at 414-15. In
dismissing the case against the defendant, CAAF
avoided the analysis of whether prejudicial effect had
been disproven under actual UCI and decided the
case on the application of apparent UCI. Id. at 415.
In so doing, the Lewis court defined the “disinterested
observer” standard by which a claim of apparent
unlawful command influence is evaluated:
“the
appearance of unlawful command influence will exist
where an objective, disinterested observer, fully
informed of all the facts and circumstances, would
harbor a significant doubt about the fairness of the
proceedings.” Id. (emphasis added).
CAAF further developed the “disinterested
observer” standard in the case of United States v.
Salyer, 72 M.J. 415 (C.A.A.F. 2013). In that case, like
Lewis, the court dismissed charges against an accused
where the prosecutor had been involved in the
25

attempted improper disqualification of a perceived
defense friendly military judge. Id. at 420-21. In
Salyer, the court applied a particularly detailed and
thorough circumstantial analysis, noting the presence
of “six facts of record” that “considered together
raise[d] some evidence of the appearance of unlawful
influence in the case.” Id. at 425-27. Having found
that apparent UCI had been sufficiently raised, the
Salyer court then asserted that it was next testing for
“prejudice”, further asserting that “the ultimate
question is whether the Government has convinced us
beyond a reasonable doubt that ‘the disinterested
public would now believe that [Petitioner] received a
trial free from the effects of unlawful command
influence.’” Id. at 427. This was the state of the UCI
jurisprudence in September of 2014 when the military
judge articulated the “West Standard” and made her
decree regarding the absence of “facts” constituting
unlawful command influence.
In the case of United States v. Boyce, 76 M.J.
242 (C.A.A.F. 2017), CAAF continued to apply the
“disinterested observer” standard by employing the
detailed circumstantial analysis developed in Salyer.
In Boyce, CAAF had examined whether UCI infected
the proceedings of a sexual assault case that was
referred to a general court martial on the same day
that the convening authority had been advised by the
newly appointed secretary of the Air Force that he
would be relieved from command unless he opted to
retire. Boyce, 76 M.J. at 245-46. This news had been
preceded by several politically unpopular decisions
that the convening authority had made in sexual
assault cases (involving his refusal to refer certain
such cases to court martial and, in other such cases,
26

his exercise of his clemency authority pursuant to
RCM 1107) that had garnered unwanted
congressional and media attention. Id. at 244-45.
Notwithstanding this pressure, the convening
authority had directly asserted that such pressure
had no impact on his decision to refer the particular
appellant’s case to court martial. Id. at 246. The
military judge had held that appellant had met his
initial burden of proving UCI, but found that the
government had established beyond a reasonable
doubt that there was no actual or apparent UCI
based upon the convening authority’s decision to
retire at the time the case was referred to court
martial. Id. CAAF reversed, holding that although
there was no actual UCI, there was apparent UCI.
In so holding, the court applied the “disinterested
observer” standard using the same thorough and
detailed circumstantial analysis of Salyer. Id. at
251-52. The particularly detailed circumstantial
analysis included: 1) the date that the convening
authority received a telephone call advising of the
appointment of the new Secretary of the Air Force
and the ultimatum to retire or be relieved, December
27, 2013; 2) the timing of the decision to retire, three
hours after receiving the December 27, 2013
telephone call; 3) the loss of benefits resulting from
his decision to retire at that time; 4) the date in
which he received the referral package on appellant’s
case, which was the very same day of the December
27, 2013 telephone call; and 5) the fact that the
convening authority was still vulnerable to
additional adverse personnel action until his
retirement on April 1, 2014. Id. at 251-52. As a
result of its findings, the court dismissed the charges
against the appellant without prejudice. Id. at 253.
27

In addition, CAAF has contemporaneously and
explicitly broadened what constitutes UCI “facts” to
coincide with the breadth of the “disinterested
observer” standard. In the case of United States v.
Barry, 78 M.J. 70 (C.A.A.F. 2018) (which specifically
involved conduct of the OJAG USN at the highest
level and was within the context of the politically
charged issue of sexual assault in the military) the
court specifically examined the question as to whether
the actions of a deputy service JAG (in this case, the
deputy OJAG USN) in providing errant advice
regarding a commander’s RCM 1107 clemency
authority to disapprove a court martial’s finding of
guilty could constitute “facts constituting unlawful
influence”. Id. at 74-76.
In setting aside the
conviction and sentence, the Barry court explicitly
held (in direct contravention of the military judge’s
assertion of the “West Standard”) that U.C.M.J.
Article 37 did not require that the perpetrator be a
convening authority or even be acting with the
“mantle of command authority” and that the advice of
the deputy JAG USN could constitute unlawful
influence. Id. at 76. More significantly, the Barry
court specifically held that unlawful influence of the
deputy JAG USN did not need to be intentional to
constitute such UCI facts. Id. at 78.
CAAF has also addressed the pervasive
instances of UCI occurred within the specific context
of a highly charged political environment
surrounding the recent handling of sexual assault
allegations in the military justice system. More
significantly, while specifically recognizing the
political pressures brought to bear by Congress and
the Executive Branch with respect to sexual assault
28

cases; the court in Boyce “pointedly emphasize[d]”
the duties of all judges within the military justice
system in “appropriately address[ing]” such pressure
“whenever they encounter it in specific cases”. Boyce,
76 M.J. at 253 & n.9. Thus, CAAF has clearly
signaled its intent to be active in reviewing and
rooting out such influence on a case by case basis and
its expectation that its subordinate military judges
must do so as well.
This brings us back to the military judge’s
articulation and application of the “West Standard” in
petitioner’s general court martial. First and foremost,
there is no jurisprudential support, whatsoever, for
the proposition that such facts are, in any way, limited
as articulated by the military judge’s “West Standard”.
The military judge made no acknowledgement
regarding the “disinterested observer” standard
prevalent in the Lewis and Salyer cases. See Appx.
at 128-29, 137-38, 141, 143-44, 148-50. There is also
no recognition of the rather obvious ability of a
biased NCIS investigator, with broad compulsory
federal authority, acting under the admitted
direction of the military prosecutor, to manipulate
witness testimony and evidence.
See id.
The
military judge’s statement that petitioner’s defense
counsel was required to specifically prove that NCIS
that had been pressured by the convening authority
or someone up the chain of command not to pursue
exculpatory evidence in the investigation, was a
blatant violation of the well-established principle for
an accused to establish a prima facie case of
apparent UCI.
Additionally, in applying the “West Standard”,
the military judge expressly required petitioner to
29

obtain direct evidence testimony from the NCIS
agents themselves that they were pressured to
conduct their investigation to obtain a result
prejudicial to petitioner, then prevented petitioner
from conducting any meaningful examination of the
circumstances of their investigation.
This
requirement imposed by the military judge stands in
direct contravention to the broad and detailed
circumstantial
analysis
accompanying
the
“disinterested observer” standard as applied in
Salyer and Boyce, and is directly contradictory to the
holding in Boyce, wherein the court expressly
rejected the dispositive nature of the type of direct
evidence testimony required by the military judge in
petitioner’s case. See 76 M.J. at 246.
Furthermore, given the context of this case
being squarely within the highly charged political
climate of sexual assault cases, the inexplicable and
arbitrary creation and application of the erroneous
and prejudicial “West Standard”, along with the
jurisdictional restrictions of U.C.M.J. Articles 66 and
67; the actions of the military judge cannot be seen
as anything other than a clear frustration and
violation of CAAF’s mandate as articulated in the
Boyce case.
At this point, petitioner acknowledges that
military judge’s September 26, 2014 creation of the
“West Standard” predates the Boyce and Barry
decisions; and OJAG USN’s June 9, 2017 decision
predates the Barry decision. This chronology is far
from extenuating. At the outset, Boyce and Barry
are not restrictive changes in UCI jurisprudence, but
are clarifications (and, arguably, reinforcements) of
the broad “disinterested observer” standard applied
30

by the Lewis and Salyer cases that should have been
readily apparent to the military judge in this case.
The timeline is much more damning for OJAG USN.
The June 9, 2017 decision came less than three weeks
after the issuance of CAAF’s UCI mandate in Boyce
(May 22, 2017), and while the Barry case (reviewing
the very conduct of the JAG USN Actual) was
pending. See Barry, 78 M.J. at 73-76. OJAG USN’s
refusal to exercise its Article 69(d) referral authority
in this case under those circumstances is simply
inexcusable.
Thus, at the very minimum, this violation
required the exercise of the Court of Claim’s power of
remand under 28 U.S.C. §1491(a)(2).
II.

In the Alternative, Petitioner’s Court
Martial Conviction Should Be Vacated
Outright
under
the
Jurisprudence
Providing for Collateral Review of Courts
Martial.

While petitioner contends that he is entitled,
as a matter of statutory construction, to have his
court martial remanded under 28 U.S.C. § 1491(a)(2)
to the OJAG USN with instruction to refer same to
the NMCCA in order to establish jurisdiction for
judicial appellate review by the military tribunals;
petitioner further contends that he is nevertheless
entitled to have his court martial conviction vacated
outright under the standard as set forth in
Matias/Bowling. First and foremost, as mentioned
above, it is without question that petitioner’s case
has not received any consideration, let alone full and
fair consideration, by any military tribunal, which
31

means that petitioner need only establish that his
case has been tainted by fundamental constitutional
error to warrant the outright vacating of his court
martial conviction.
Furthermore, the aforementioned wrongful
acts rise to the level of fundamental constitutional
due process violations because they are arbitrary
deprivations of “substantial and legitimate interests”
of petitioner in established jurisprudence relating to
UCI, as provided in this Court’s decision in the case
of Hicks v. Oklahoma, 447 U.S. 343 (1980).
In the case of Hicks, this Court reviewed a
judgment of the Oklahoma Supreme Court affirming
a sentence that was imposed pursuant to statutory
sentencing
requirements
determined
to
be
unconstitutional. Specifically, the Oklahoma State
Supreme Court, in reviewing the constitutionality of
the defendant’s sentence, held that the mandatory
sentence provision was an unconstitutional
infringement upon the defendant’s statutory right to
have his sentence decided by the jury. Id. at 343.
However, the state court had further found that the
sentence would not be disturbed because the it was
within the range of what the jury could have
assessed, the defendant in that case therefore was
not prejudiced. Id. at 343. In reversing, this Court
explained that arbitrarily depriving a criminal
defendant, whose liberty interests are at stake, of a
statutory procedural right rises to the level of a
constitutional due process violation. Id. at 346.
Just as with the defendant in Hicks, petitioner
in this case clearly had a “substantial and legitimate
expectation” that deprivation of his liberty interests
32

would not occur on the arbitrary actions of either the
military judge or the OJAG USN in applying UCI
jurisprudence.
Specifically, the military judge’s
arbitrary creation and application of a much more
stringent standard of proof for establishing UCI not
only constitutes legal error, but rises to the level of a
fundamental violation of petitioner’s right of Due
Process. As such, even if this Court were to find that
remand under 28 U.S.C. § 1491(a)(2) not to be
warranted, petitioner is nevertheless entitled to have
his conviction vacated outright under the standards
of Matias/Bowling.
III.

The Doctrine of Issue Preclusion Does
not Apply Bar Litigation of the Issue of
Falsity of the Sexual Assault Allegations
against Petitioner:

The Trial Court found that the December 22,
2015 ruling in the case of West v. Rieth, which upheld
the Westfall Act certification of the scope of
employment of petitioner’s accusers in that case, and
denied the Federal District Court of subject matter
jurisdiction; was preclusive as to the issue of whether
petitioner was falsely accused of sexual assault and
sexual harassment. The Trial Court’s ruling was
erroneous and the Government was not entitled to
summary judgment on that issue.
This Court has applied defined the doctrine of
issue preclusion (collateral estoppel), in the case of
Montana v. United States, 440 U.S. 147 (1979). In
that case, this Court provided that “[u]nder collateral
estoppel, once an issue is actually and necessarily
determined by a court of competent jurisdiction, that
33

determination is conclusive in subsequent suits
based on a different cause of action involving a party
to the prior litigation. Id. at 153. As applied in the
Federal Circuit, a judgment on the merits in a prior
suit precludes re-litigation in a second suit of issues
actually litigated and determined in the first suit. In
re Freeman, 30 F.3d 1459, 1465 (Fed. Cir. 1994).
Issue preclusion is appropriate only if: (1) the issue is
identical to one decided in the first action; (2) the
issue was actually litigated in the first action; (3)
resolution of the issue was essential to a final
judgment in the first action; and (4) plaintiff had a
full and fair opportunity to litigate the issue in the
first action. Shell Petroleum, Inc. v. U.S., 319 F.3d
1334, 1338 (Fed. Cir. 2003); Freeman, 30 F.3d at
1465.
As an initial matter, the December 22, 2015
ruling does not carry preclusive effect upon the issue
of falsity of accusations against petitioner because, in
deciding to uphold the Westfall Act certification, the
court had necessarily decided that it was not a court
of competent jurisdiction. In fact, the July 12, 2016
Judgment in the case of West v. Rieth, incorporating
the December 22, 2015 ruling, explicitly stated that
petitioner’s state law claims were “[d]ismissed
without prejudice for lack of subject matter
jurisdiction.” Appx. at 186-87. Although seemingly
addressing the merits, because the court in the case
of West v. Rieth was making such a determination for
the limited purpose of deciding its own jurisdiction
under the Westfall Act, and because it answered that
question in the negative; it was not a “court of
competent jurisdiction” as to the actual merits of
plaintiff’s claims. As such, the December 22, 2015
34

ruling cannot have any preclusive effect upon the
claims in the matter below as per this Court’s
pronouncement in Montana v. United States.
Additionally, petitioner clearly was not given a
full and fair opportunity, within the December 22,
2015 ruling, to litigate the factual issues surrounding
the weight of evidence of whether his accusers
conspired to falsely accuse him of sexual assault and
sexual harassment.
Specifically, in dismissing
petitioner’s state law claims under the Westfall Act,
the District Court 1) assigned the burden of proof, by
preponderance of evidence, upon the petitioner; 2)
did not afford the petitioner the right to an
evidentiary hearing and 3) did not require, prior to
adjudication of validity of the Westfall Act
certification, that the defendants specifically deny
the allegations of the petitioner on the merits. See
Appx. at 194-98, 203.
These factors clearly
constitute “significant procedural limitations”
preventing the December 22, 2015 ruling from
having any preclusive effects on the issues
pertaining to the weight of evidence as to the
accusers’ conspiracy to make false sexual assault and
sexual harassment claims against petitioner.
IV.

The Privacy Act, 5 U.S.C. § 552a, and DoD
Policy Do Not Apply to Prohibit a
Petitioner from Publicly Asserting the
Identities of his Accusers:

As a final matter, the Trial Court abused its
discretion when it denied petitioner’s Motion for
Relief from Protective Order based upon the
application of the Privacy Act, 5 U.S.C. § 552a, which
35

purportedly applies to prevent the public release of
the names of petitioner’s accusers.
The Privacy Act safeguards the public from
unwarranted collection, maintenance, use and
dissemination of personal information contained in
agency records. Bertel v. F.A.A., 725 F.2d 1403, 1407
(D.C. Cir. 1984).
Specifically, the Privacy Act
imposes responsibilities on federal agencies to
maintain their records accurately and to prevent
improper disclosure of same. Id. However, it is well
settled law that the Privacy Act does not prohibit
disclosure of information or knowledge obtained from
sources other than records. Pippinger v. Rubin, 129
F.3d 519, 530-31 (10th Cir. 1997); Wilborn v. Dept of
Health & Human Servs., 49 F.3d 597, 600 (9th Cir.
1995); Olberding v. United States Dep’t of Defense,
709 F.2d 621, 622 (8th Cir. 1983).
The Privacy Act does not apply to protect the
disclosure of the identities of the accusers in this
case, as that information was obtained in the normal
course of the public proceedings of petitioner’s
general court martial independently of any so called
“protected record” under the Privacy Act. In addition
to the general presumption that “all trial proceedings
should be subject to scrutiny by the public”, the
access to all information contained in the record of
these proceedings was afforded through the open
court martial process; and, as such, petitioner enjoys
an unquestioned right under the Sixth Amendment
of the United States Constitution to have that
information made public. Petitioner’s unquestioned
right to a public trial, within the context of the
military justice process, is encapsulated by RCM 806,
which specifically provides that courts martial “shall
36

be open to the public” and permits “closure” under
very narrow circumstances, which are inapplicable
here. R.C.M. Rule 806(b)(2). Further, there is no
provision within the DoD Instruction 6495.02 or
Marine Corps Order 1752.5B, pertaining to the
DoD/USMC SAPR Program, that of its own force
requires confidentiality of any information or
testimony elicited at a public trial.
Unfortunately, the Trial Court’s holding went
well beyond the confines of the record before it and
has led to the unavoidable premise that because
information may be contained within a purported
government record, it must be protected from general
dissemination by anyone (public official or private
citizen) who would come by that information through
independently public means. This is simply a gross
distortion of the Privacy Act, which distortion
unavoidably leads to unconstitutional prior restraint
in violation of the First Amendment of the United
States Constitution. See New York Times Co. v.
United States, 403 U.S. 713 (1971).

37

CONCLUSION
Based on the above, petitioner herein submits
that the Petition for Writ of Certiorari should be
granted in this case.
September 15, 2021 Respectfully Submitted,
CLAIBORNE W. BROWN
Counsel of Record
1070-B West Causeway Appr.
Mandeville, LA 70471
(985) 845-2824
cwbrown@cwbrownlaw.com
Counsel for Petitioner

38

